No. 20-1233
IN THE

Supreme Court of the United States
JOHNNY GATEWOOD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Mark W. Mosier, a member of
the Bar of this Court, certify that the Brief for Amici Curiae The Center on the
Administration of Criminal Law at NYU School of Law and Kentucky Association of
Criminal Defense Lawyers in Support of Petitioner in the above-captioned case
contains 4,182 words, excluding the parts of the brief that are exempted by Supreme
Court Rule 33.1(d).
April 7, 2021

s/ Mark W. Mosier
Mark W. Mosier
COVINGTON & BURLING LLP
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
mmosier@cov.com
Counsel of Record for Amici Curiae

